Report No. D-2007-097    May 16, 2007




  Controls Over Military Personnel, Army
Appropriation Permanent Change of Station
 Travel Advances and Suspense Accounts
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DFAS-IN               Defense Finance and Accounting Service Indianapolis
EOR                   Element of Resource
FMR                   Financial Management Regulation
MPA                   Military Personnel, Army
MPAD                  Military Pay Accounting Division
ODS                   Operational Data Store
PCS                   Permanent Change of Station
STANFINS              Standard Finance System
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON , VIRGINIA 22202-4704





                                                                             May 16,2007

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
               SERVICE INDIANAPOLIS OPERATIONS

SUBJECT:	 Report on Controls Over Military Personnel, Army Appropriation Permanent
          Change of Station Travel Advances and Suspense Accounts
          (Report No. D-2007-097)


      Weare providing this report for review and comment. We considered
management comments on a draft ofthis report when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Finance and Accounting Service comments on Recommendation A.l . were
partially responsive. We request that the Director, Defense Finance and Accounting
Service Indianapolis Operations provide additional comments by June 16,2007.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place ofthe actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Carmelo G. Ventimiglia at (317) 510-4801, ext. 275 (DSN 699-4801) or
Mr. Robert J. Ringwald at (317) 510-4801, ext. 272 (DSN 699-4801). See Appendix D
for the report distribution. The team members are listed inside the back cover.

                                By direction of the Deputy Inspector General for Auditing:



                                         (i~-
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
                     Department of Defense Office of Inspector General
Report No. D-2007-097                                                                        May 16, 2007
      (Project No. D2005-D000FI-0268.001)

              Controls Over Military Personnel, Army Appropriation 
 

                 Permanent Change of Station Travel Advances 
 

                             and Suspense Accounts 
 


                                         Executive Summary 
 


Who Should Read This Report and Why? Army management and Defense Finance
and Accounting Service (DFAS) officials who are responsible for the accounting and
reporting of the Military Personnel, Army (MPA) appropriation should read this report.
This report discusses control weaknesses over the accounting for travel advances paid
from the MPA appropriation for permanent change of station moves and MPA
appropriation suspense accounts.

Background. This is the second of two audit reports evaluating the processes and
controls over managing and accounting for the MPA appropriation. Specifically, this
report addresses the effectiveness of controls over accounting for permanent change of
station travel advances and suspense accounts. The MPA appropriation is a centrally
managed, single-year appropriation that funds soldiers’ pay and allowances and other
related personnel costs, including permanent change of station travel advances.
Thirty-two DFAS and Army travel pay offices processed travel advances and travel
claims. For FY 2006, direct obligation authority for permanent change of station moves
totaled $1.4 billion. The Military Pay Accounting Division at DFAS Indianapolis is
responsible for the accounting and reporting of the MPA appropriation. As of
June 30, 2006, the division reported 16 non-tax suspense accounts, with balances totaling
about $212.2 million.

Results. DFAS Indianapolis did not maintain adequate controls over researching and
collecting permanent change of station travel advances paid from the MPA appropriation.
As a result, DFAS Indianapolis did not collect approximately $3 million owed by Army
soldiers for permanent change of station travel advances made in FYs 2001 through
2004. In addition, the Army will likely incur significant additional write-offs 1 of travel
advances paid from the MPA appropriation. DFAS Indianapolis should work with the
Office of the Assistant Secretary of the Army (Financial Management and Comptroller)
to develop a cost-effective strategy for researching and collecting FYs 2002 and 2003
travel advances. DFAS Indianapolis should also assign responsibility for collecting the
permanent change of station travel debts to a specific organization and establish
procedures to track and monitor the cost-effectiveness of researching and collecting the
FYs 2002 and 2003 unsettled travel advances. In addition, DFAS Indianapolis should
provide the Military Pay Accounting Division with the resources required to promptly

1
    A write-off is a removal or clearance of differences from DoD accounting records. A write-off is not
    necessarily a loss of funds resulting from an overpayment or an erroneous payment. Uncleared
    transactions in the MPA appropriation travel advance accounts are often the result of accounting errors.
research, reconcile, and clear all unsettled advances in the FYs 2004 through 2006
permanent change of station travel advance accounts, and the Military Pay Accounting
Division should develop a management report to provide increased visibility and
oversight over the travel debt collection process. Further, DFAS Indianapolis should
analyze the results of researching and clearing the travel advance accounts and collecting
travel debts to identify the root causes for uncleared travel advance transactions and
erroneous data (finding A). Finally, DFAS Indianapolis needs to collect the $3 million
owed by Army soldiers. (See Appendix C for a summary of the potential monetary
benefits.)

The Military Pay Accounting Division did not maintain effective controls over
reconciling, clearing, and reporting the MPA appropriation suspense accounts.
Unresolved transactions in suspense accounts can conceal problem disbursements and
erroneous payments. The Military Pay Accounting Division should reconcile differences
between reported summary suspense account balances; train personnel on procedures for
reconciling account balances; establish procedures for researching and clearing
suspended transactions; and update procedures for preparing the monthly Suspense
Account Report. The Military Pay Accounting Division should also update the Plan of
Actions and Milestones for improving control over MPA appropriation suspense
accounts, and DFAS Indianapolis should dedicate adequate staff to ensure that accounts
are properly maintained (finding B). See the Findings section for more detailed
recommendations.

Management Comments and Audit Response. The Director, DFAS Indianapolis
Operations concurred with all of the recommendations. The Director stated that DFAS
has been working with the Army for the last two years on a cost-effective strategy for
researching and collecting FYs 2002 and 2003 travel advances. The Director also stated
that DFAS does not believe that further research will be cost-beneficial to the Army. The
Director’s comments are only partially responsive. The Director did not indicate that
DFAS prepared a documented cost-benefit analysis to support that it would not be
cost-effective to research and collect outstanding permanent change of station travel
advances. Once such analysis is prepared, DFAS needs to coordinate the strategy with
the Army and minimize the write-offs of travel advances paid from the FYs 2002 and
2003 MPA appropriations.

The Director, DFAS Indianapolis Operations agreed to assign responsibilities for
collecting verified travel debts and to establish procedures to track and monitor the
cost-effectiveness of researching and collecting FYs 2002 and 2003 unsettled travel
advances. The Director stated that DFAS has not yet been able to validate any debts to
collect, but that DFAS will continue to research and determine the validity of any debts.
He also stated that the Military Pay Accounting Division received authorizations for
additional resources, and the division will develop a monthly management report and
standard procedures to analyze and track root causes related to uncleared travel advances.
The Military Pay Accounting Division will also improve controls over reconciling,
clearing, and reporting the MPA suspense accounts.

We request that the Director, DFAS Indianapolis Operations provide additional
comments on the final report by June 16, 2007. See the Findings section of the report for
a discussion of management comments and the Management Comments section of the
report for the complete text of the comments.



                                            ii
Table of Contents 
 


Executive Summary 	                                            i


Background 	                                                   1


Objective 	                                                    2


Findings
      A. Permanent Change of Station Travel Advances 	         4

      B. Suspense Accounts 	                                  15 


Appendixes
      A. Scope and Methodology 	                              25 

      B. Prior Coverage 	                                     27 

      C. 	Summary of Potential Monetary Benefits 

            Associated with Recommendation A.2.               29 

      D. Report Distribution 	                                30 


Management Comments
      Defense Finance and Accounting Service Indianapolis 	   31 

Background 
 

           The Military Personnel, Army (MPA) appropriation is a centrally managed,
           single-year appropriation that funds soldiers’ pay and allowances and other
           related personnel costs, including permanent change of station (PCS) travel
           advances. For FY 2006, direct obligation authority for the MPA appropriation
           totaled $40.8 billion. The Military Pay Accounting Division (MPAD), located at
           Defense Finance and Accounting Service Indianapolis (DFAS-IN), is responsible
           for the accounting and financial reporting of the MPA appropriation.

           DoD military personnel are authorized to receive an advance payment for travel
           and lodging costs associated with a PCS move. For FY 2006, total direct
           obligation authority for Army PCS moves totaled $1.4 billion. Thirty-two DFAS
           and Army travel pay offices processed PCS advances and travel claims:

                   •	 DFAS-IN Travel Pay Operations 2

                   •	 17 non-consolidated Defense Military Pay Offices

                   •	 14 Army Finance Battalions

           MPAD is responsible for monitoring, researching, and clearing travel advance
           transactions recorded in the accounting records, and collecting travel debts when
           an account receivable is recorded for the balance of an outstanding travel
           advance.

           Suspense accounts are used to temporarily hold disbursements and collections
           until they are cleared to the proper appropriation account. DoD Financial
           Management Regulation (FMR), volume 12, chapter 1, “Funds,” March 2006,
           identifies two types of accounts that DoD Components can use to temporarily
           hold collections and disbursements:

                   •	 Clearing accounts are used to temporarily hold collections or
                      unidentified disbursements pending clearance to the proper receipt or
                      expenditure account. DoD Components use clearing accounts to hold
                      collections and disbursements that belong to the U.S. Government.
                      Clearing accounts are reported as liabilities on the General Ledger
                      Trial Balance.

                   •	 Deposit fund accounts are used to account for collections and
                      withholdings held temporarily and later refunded or paid upon legal or
                      administrative determination. Deposit fund accounts are liabilities of
                      the U.S. Government.



2
    Travel Pay Operations, located at DFAS-IN, processed travel advances and travel claim vouchers on
    behalf of 27 Defense Military Pay Offices located at numerous Army installations. We examined the
    procedures for processing PCS advances and travel claims at DFAS-IN Travel Pay Operations.



                                                     1
 

           On the June 30, 2006 Suspense Account Report, MPAD reported 16 non-tax
           suspense accounts with a total balance of about $212.2 million.


Objective
           Our overall audit objective was to evaluate whether processes and controls were
           in place to ensure accurate and timely recording of the Army’s military pay and
           benefits cost data. Specifically, we reviewed the effectiveness of the controls
           over the accounting for PCS advances and suspense accounts. We also reviewed
           the Managers’ Internal Control Program as it related to the overall objective. This
           is the second of two audit reports that discuss the processes and controls over
           managing and accounting for the MPA appropriation. DoD Inspector General
           Report No. D-2006-112, “Selected Controls Over the Military Personnel, Army
           Appropriation,” September 22, 2006, discusses Army management of the MPA
           appropriation, and its joint responsibilities with DFAS-IN to account for and
           report the appropriation. See Appendix A for a discussion of the scope and
           methodology. See Appendix B for prior coverage related to the objective.


Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, 3 require DoD organizations to implement a comprehensive
           system of management controls to provide reasonable assurance that programs are
           operating as intended and to evaluate the adequacy of the controls.

           Scope of the Managers’ Internal Control Program Review. We evaluated the
           adequacy of DFAS-IN’s internal controls over the accounting for the MPA
           appropriation PCS travel advances and suspense accounts. We also assessed
           management’s self-evaluation of those controls.
           Adequacy of Management Controls. Using guidance defined by DoD
           Instruction 5010.40, we identified a material internal control weakness. Internal
           controls did not ensure that PCS travel advances recorded in the accounting
           records were researched and that travel debts were collected (finding A). This
           systemic internal control weakness resulted in DFAS-IN writing off net balances
           totaling $19.9 million in travel advances when it closed the FYs 1997 through
           1999 MPA appropriations. Recommendations A.1., A.3., A.4., A.5., and A.6.,
           when implemented, will correct the material internal control weakness.
           Recommendation A.2., when implemented, will result in potential monetary
           benefits (see Appendix C). In addition, internal controls over suspense accounts
           were not adequate. Internal controls did not ensure that MPAD properly

3
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on January
    4, 2006.

                                                     2
 

reconciled, researched, and reported the MPA appropriation suspense accounts
(finding B). Recommendations B.1. through B.7., when implemented, will
correct the internal control weakness. A copy of this report will be provided to
the senior official responsible for management controls in DFAS-IN.

Adequacy of Management’s Self-Evaluation. MPAD assessable unit managers
conducted self-evaluations using locally developed matrices to assess internal
controls over major functions performed by the division. Managers identified
PCS travel advances as a major function and reported monitoring of PCS travel
advances as a non-material weakness. The Director of DFAS-IN included its
monitoring of PCS travel advances as a non-material weakness in the FY 2006
Annual Statement of Assurance. MPAD assessable unit managers identified
suspense accounts as a major function and concluded that adequate internal
controls were in place. Although MPAD management’s self-evaluation did not
identify and report controls over suspense accounts as an internal control
weakness, MPAD developed, but did not effectively implement, a Plan of Actions
and Milestones to improve controls over reconciling and reporting suspense
accounts.




                                     3
 

            A. 	Permanent Change of Station Travel
                Advances
            DFAS-IN did not maintain effective controls over researching and
            collecting outstanding PCS travel advances paid from the MPA
            appropriation. This occurred because DFAS-IN did not:

                   •	 develop a cost-effective strategy to research the FYs 2000
                      through 2003 travel advance accounts and collect verified
                      travel debts,

                   •	 provide the resources needed to research and clear unsettled
                      travel advances issued after FY 2003,

                   •	 implement procedures to monitor and maintain visibility over
                      collecting travel debts, and

                   •	 establish a process to evaluate the effectiveness of its Plan of
                      Actions and Milestones to improve control over travel
                      advances.

            As a result, DFAS-IN did not collect about $3 million owed by Army
            soldiers related to PCS travel advances made in FYs 2001 through 2004.
            In addition, the Army will likely incur significant additional write-offs of
            travel advances paid from the MPA appropriation.


Responsibility for Travel Advances
     Before FY 2004, the Army managed the MPA appropriation as an open allotment.
     Under an open allotment, obligations, disbursements, and collections citing the
     MPA appropriation were charged to one nonspecific, “nominal” fiscal station
     number. DFAS-IN and Army travel pay offices had responsibility for making and
     monitoring PCS travel advances and ensuring recovery of any outstanding
     advances upon completion of travel by the soldier. However, under an open
     allotment, DFAS did not record obligations, disbursements, and collections
     related to PCS travel advances and travel claims in the Standard Finance System
     (STANFINS), the installation-level accounting system. Rather, DFAS-IN
     recorded and reported obligations, disbursements, and collections meeting
     established criteria at the summary account level in its Headquarters Accounting
     and Reporting System using a “nominal” fiscal station number. Although
     individual PCS travel transactions were recorded in the Headquarters Accounting
     and Reporting System, they were not identified and tracked by a standard
     document reference number, and no accounting office was assigned responsibility
     for monitoring the PCS travel advance account.

     Starting in FY 2004, the MPA appropriation changed from an open allotment to a
     specific allotment, with accounting and financial reporting performed by MPAD
     at DFAS-IN. Under the specific allotment, travel pay offices remain responsible

                                          4
 

           for monitoring outstanding advances and ensuring that travelers submit a final
           travel settlement claim upon completion of a PCS move. Travel pay offices are
           also responsible for establishing an account receivable for the uncollected
           advance balance remaining after settlement of the final travel claim. However,
           under the specific allotment, MPAD is responsible for monitoring the PCS travel
           advances recorded in STANFINS’s accounting records to ensure that travel pay
           offices recover all travel advances and that transactions recorded in the account
           are reconciled and cleared. In addition, for PCS advances issued after FY 2003,
           MPAD is responsible for debt collection when an account receivable is
           established for the balance of an unliquidated travel advance.

           When it closed the MPA appropriations for FYs 1997 through 1999, DFAS-IN
           wrote off travel advance accounts with a net balance 4 of $19.9 million. As of
           September 30, 2004, DFAS-IN reported that the net balances of the travel
           advance account for FYs 2000 through 2004 totaled $36.4 million. 5 Table 1
           contains a breakout of the $36.4 million by fiscal year and the corresponding
           closing fiscal year of the appropriation.

                              Table 1. Net Travel Advance Account Balances
                                        (as of September 30, 2004)
                               Appropriation    Appropriation      Dollars
                                Fiscal Year      Closing Year   (in millions)
                                    2000                  2005                $7.2
                                    2001                     2006            ($1.4)
                                    2002                  2007               $13.7
                                    2003                  2008                $3.7
                                    2004                  2009               $13.2


           In January 2005, DFAS-IN initiated a project to research and collect outstanding
           PCS travel advances made in FYs 2000 through 2003. In June 2005, DFAS-IN
           and the Army signed a memorandum of understanding for DFAS-IN to research,
           reconcile, and clear travel advances recorded in the FYs 2000 through 2004 MPA
           and Operation and Maintenance, Army appropriation accounts. The MPA
           appropriation and Operation and Maintenance, Army appropriation open
           allotment accounts are managed by the Office of the Deputy Chief of Staff for
           Personnel. The Army and DFAS-IN also developed a Plan of Actions and
4
    When net amounts are reported, collections and adjustments are netted against disbursements. When
    absolute amounts are reported, collections and adjustments are added to disbursements. Reporting net
    amounts can significantly understate the magnitude and impact of errors.
5
    The $36.4 million balance included $30.8 million in the FYs 2000 through 2004 MPA appropriation
    accounts and $5.6 million in the FYs 2002 through 2004 Operation and Maintenance, Army
    appropriation open allotment accounts. The audit focused on the PCS travel advances paid from the
    MPA appropriation.



                                                      5
 

           Milestones to improve accountability and control over travel advances. DFAS-IN
           assigned the responsibility for researching and clearing travel advances recorded
           in the FYs 2000 through 2004 allotment accounts to the Army Managerial
           Accounting Division.


Criteria
           Authorized Advances. The DoD FMR, volume 9, chapter 5, “Temporary Duty
           Travel (TDY) - Nondefense Travel System,” September 2005, authorizes
           travelers to receive an advance payment of generally up to 80 percent of the travel
           and lodging costs authorized for a PCS move. The travel pay offices processing
           advances are to cite the MPA appropriation and element of resource 6 (EOR)
           4120, “PCS Travel Advance.” The DoD FMR also requires that travel pay offices
           monitor outstanding travel advances to ensure that travelers file a travel claim
           within 10 working days of arrival at the permanent duty station or immediately
           upon cancellation of the travel orders. Travel pay offices are required to establish
           controls to follow up by letter if the traveler does not submit the travel claim
           within 15 days of completion of travel. If a claim is not received within 31 days
           of the follow-up letter, the travel office should establish an account receivable for
           the debt amount due the U.S. Government by citing EOR 4610, “Accounts
           Receivable Travel Related,” and liquidating the outstanding advance recorded in
           EOR 4120. DFAS-IN Regulation 37-1, chapter 11, “Accounting for Advances,
           Prepayments, and Progress Payments,” November 2004, states that travel
           advances normally will not be outstanding for more than 90 days. DFAS-IN
           Regulation 37-1, Appendix P, “Reconciling Outstanding Travel Advances,”
           January 2000, states that control over outstanding advances is a joint
           responsibility of travel and accounting operations.

           Debt Collection. The DoD FMR, volume 5, chapter 28, “General Provisions on
           Indebtedness,” August 2003, requires that the DoD Components establish and
           maintain a debt management program to identify and collect debts owed to the
           Component and to the U.S. Government. The debt management program should
           achieve the maximum recovery of debt within acceptable costs. DoD
           Components are required to evaluate the cost effectiveness of alternative
           collection techniques and establish minimum debt amounts below which
           collection efforts need not be taken. For soldiers who are still in the military,
           DFAS-IN Regulation 37-1, chapter 11, requires that debts pursued must exceed
           $10. For individuals who are no longer in the military, DoD FMR, volume 5,
           chapter 29, “Collection of Individual Out-of-Services Debts,” August 2003,
           requires that debts pursued must exceed $225.


Researching and Collecting Older PCS Travel Advances
           DFAS-IN did not develop a cost-effective strategy to accomplish the project
           started in January 2005 to research and collect outstanding PCS travel advances
6
    The EOR is a four-digit code which identifies the type of resource employed or consumed.

                                                      6

           made in FYs 2000 through 2003. Uncleared transactions in the PCS travel
           advance accounts are often the result of accounting errors caused by travel pay
           offices citing an erroneous standard document reference number or EOR. In other
           cases, the travel pay office processing the final travel settlement claim may not
           have collected the outstanding travel advance or established an account receivable
           for the balance owed by the traveler. DFAS-IN officials determined that they
           lacked a complete audit trail to research most of the travel advances in FYs 2000
           and 2001. In addition, DFAS-IN had not developed a cost-effective strategy for
           completing research of the travel advance accounts for FYs 2002 and 2003 and
           collecting any related travel debts.

           FYs 2000 and 2001 Advances. DFAS-IN did not have a complete audit trail for
           the accounting and travel records needed to research most of the outstanding
           travel advances for FYs 2000 and 2001. DFAS-IN uses the Operational Data
           Store (ODS) system to interface information from various entitlement, disbursing,
           and accounting systems. The Army Managerial Accounting Division queried the
           accounting and travel tables in ODS to identify the voucher number and standard
           document reference number of PCS travel advance transactions recorded in EOR
           4120.

           For FYs 2000 and 2001, the Army Managerial Accounting Division reported that
           it had identified few PCS travel advance transactions with complete lines of
           accounting in ODS. During this time period, most transactions contained a
           zero-filled standard document reference number, and Army travel offices located
           overseas did not interface with ODS. In addition, DFAS travel pay offices had
           purged all FY 2001 and prior records in the Integrated Automated Travel System,
           which is used to process travel advances and travel claims. As result, at the end
           of FY 2005, DFAS-IN Departmental Accounting wrote off the $7.1 million net
           balance remaining in the FY 2000 MPA appropriation travel advance account by
           obligating and expensing costs to other travel EORs. In addition, at the end of
           FY 2006, Departmental Accounting wrote off the $1.7 million credit balance 7
           remaining in the FY 2001 travel advance account by increasing unliquidated
           obligations recorded in other travel EORs.

           FYs 2002 and 2003 Advances. Upon completing research and determining that
           PCS travel advances had not been collected, DFAS-IN did not collect travel
           debts. The Army Managerial Accounting Division used ODS to research and
           clear transactions recorded in the FYs 2002 and 2003 travel advance accounts. In
           February 2006, the division forwarded a list of outstanding advances to DFAS-IN
           Travel Pay Operations for audit and collection. In April 2006, Travel Pay
           Operations reported that its audit had identified about $3 million 8 of open
           advances for which either the travel settlement claims were not processed or,
           when processed, the outstanding travel advances were not collected. These
           outstanding advances included payments of $225 and less to out-of-service
7
    The PCS travel advances account (EOR 4120) normally has a debit account balance. A credit balance
    occurs when aggregate collections exceed disbursements. Research and reconciliation of transactions by
    traveler and travel order are required to properly clear the account balance.
8
    The $3 million included smaller debts related to FYs 2001 and 2004 PCS travel advances and temporary
    duty travel. See Appendix C for a breakout of the $3 million by appropriation and fiscal year.



                                                      7
 

            soldiers. Travel Pay Operations also reported finding travel vouchers that were
            incorrectly computed. In other cases, Travel Pay Operations could not determine
            the status of the outstanding advance because the travel voucher was missing. As
            of July 2, 2006, the Army Managerial Accounting Division reported that it had
            researched and cleared 77,000 lines of accounting 9 with an absolute value of
            $89.9 million.

            Officials in both Travel Pay Operations and the Army Managerial Accounting
            Division stated that they were not responsible for collecting the travel debts.
            However, DFAS-IN Regulation 37-1 states that both accounting and travel
            operations will work toward the timely recoupment of advances. Because the two
            offices had not coordinated responsibility for collecting PCS travel debts,
            DFAS-IN had not collected $3 million of travel debts as of July 5, 2006.
            DFAS-IN should assign responsibility for collecting and collect the $3 million
            owed by Army soldiers and other verified travel debts.

            Cost-Effectiveness of Researching Advances. DFAS-IN did not develop a
            cost-effective strategy for completing the project to research and collect
            outstanding PCS travel advances for FYs 2002 and 2003. As of July 2006, the
            Army Managerial Accounting Division reported uncleared travel advance
            transactions with an absolute value of about $79.7 million 10 and a net value of
            about $8.3 million. The $79.7 million included the $3 million of travel debts
            identified by Travel Pay Operations and about $5.4 million in unsettled travel
            advances and advances requiring additional documentation or awaiting debt
            verification. The Army Managerial Accounting Division had not completed
            preliminary research for about 6,000 travel advance cases and about 46,000 lines
            of accounting that were missing a document reference number.

            The Army Managerial Accounting Division reported to the Army that it had
            expended about $442,000 from January 2005 through June 2006 to research the
            travel advance accounts for FYs 2000 through 2003. This estimated expense was
            based on direct labor costs of personnel performing the research, not on the
            standard rate of $63.25 per hour that DFAS-IN charged the Army for accounting
            services in FY 2006. Division personnel estimated that it could take 49,000
            additional labor hours to research and clear the remaining 6,000 travel advance
            cases and the 46,000 lines of accounting that lacked a document reference
            number. Based on the standard hourly rate of $63.25, we estimate that DFAS-IN
            would charge the Army about $3 million to complete research of the remaining
            cases and lines of accounting. Additional costs would be incurred by DFAS and
            Army travel pay offices to assist in researching travel records and collecting the
            verified travel debts.



9
    The line of accounting is a collection of data elements used to identify financial transactions. Lines of
    accounting are cleared by matching, based on the standard document reference number, travel advance
    disbursements to the offsetting collections. Without the standard document reference number, accounting
    personnel must research each line of accounting to identify the transactions associated with each traveler.
10
     This amount included $72.9 million of transactions citing the FYs 2001 to 2003 MPA appropriations.
     The remaining $6.8 million cited the Operation and Maintenance, Army appropriation; Defense
     Emergency Response Fund appropriation; or the FY 2004 MPA appropriation.

                                                        8
 

    DFAS-IN needs to develop a cost-effective strategy for completing research of
    the FYs 2002 and 2003 travel advance accounts and collecting the verified travel
    debts. This strategy should consider factors such as dollar value of the travel
    advance, availability of the supporting documentation, and whether the traveler is
    on active duty or is out of military service. The analysis should also consider the
    costs incurred by travel pay offices to assist in researching travel records,
    recomputing travel claims, and collecting the verified travel debts. In addition,
    DFAS-IN needs to assign responsibility for collecting the verified travel debts
    and establish procedures to track and monitor the cost-effectiveness of the
    research and collection process. DFAS-IN should to coordinate with the Office of
    the Assistant Secretary of the Army (Financial Management and Comptroller) to
    agree on a strategy for completing research of FYs 2002 and 2003 travel advance
    accounts and collecting travel debts from soldiers.


Researching PCS Travel Advances Issued After FY 2003
    DFAS-IN did not devote the resources required to research, reconcile, and clear
    PCS travel advances issued after FY 2003. MPAD became responsible for the
    accounting and financial reporting of the MPA appropriation upon its conversion
    to a specific allotment in FY 2004. This responsibility included researching,
    reconciling, and clearing transactions recorded in the PCS travel advance account
    (EOR 4120) and establishing an account receivable for the verified travel debts.
    Although MPAD established procedures to research, reconcile, and clear the
    travel advance account, it assigned only one person to perform the function. As a
    result, MPAD had reported minimal progress in clearing the FYs 2004 and 2005
    travel advance accounts to DFAS-IN and Army management. Table 2 shows the
    consolidated status of the travel advance accounts for FYs 2004 and 2005 from
    December 31, 2005, through July 31, 2006.

                  Table 2. FYs 2004 and 2005 Outstanding Advances

                               Uncleared Lines       Net Value      Absolute Value
            As of Date         Of Accounting        (in millions)    (in millions)
       December 31, 2005            92,697              $5.5            $104.8
       March 31, 2006               91,355              $3.8            $103.8
       July 31, 2006                89,654              $3.0            $101.8

    Delays in researching, reconciling, and clearing the PCS travel advance account
    make it more difficult to research transactions and obtain supporting
    documentation. In addition, soldiers with a travel debt may leave military
    service, thereby increasing the cost to collect the debt and reducing the amount of
    debt recovered. DFAS-IN needs to determine and devote the resources necessary
    to ensure that MPAD researches, reconciles, and clears the outstanding advances
    recorded in the PCS travel advance account within 90 days.



                                         9

     During FY 2006, DFAS-IN and the Army took actions to improve controls over
     outstanding travel advances. These actions included providing additional training
     to all employees, modifying the Integrated Automated Travel System to reject
     zero-filled document reference numbers, and establishing Army Management
     Structure Codes for advances issued to officers and enlisted personnel. However,
     these actions primarily affected travel advances made after FY 2005. If
     effectively implemented, these actions should reduce the number and dollar
     amounts of aged, uncleared transactions reported in the EOR 4120 account, as
     well as the number of personnel required to research and clear the account.


Collecting Travel Debts
     DFAS-IN did not develop a management report to effectively monitor and
     maintain visibility over the debt management program to ensure maximum
     recovery of travel advance debts owed the Army. Upon settlement of the final
     travel claim, the travel pay offices were responsible for establishing an account
     receivable citing EOR 4610 for the travel advance amount owed by the traveler.
     Starting in FY 2004, MPAD was responsible for the debt collection process, to
     include notifying the soldier of the amount owed and establishing a repayment
     plan. In July 2005, MPAD established a debt management tool to track accounts
     receivable through the debt collection process. However, the debt management
     tool did not provide upper management visibility and oversight over the debt
     collection process. Table 3 shows the status of accounts receivable based on our
     analysis of data recorded in the debt management tool as of July 31, 2006.

         Table 3. Status of Accounts Receivable in the Debt Collection Process

                             Fiscal Year of Outstanding Advance
                                                                  Not
     Case Status      2004         2005             2006       Identified      Total

     Open           $ 91,540     $ 949,731        $2,453,783    $372,650     $3,867,614
     Pending
     Information     603,329        517,483          35,961        86,861      1,243,634
     Collection
     Started         251,918      1,412,162        1,323,083       35,314      3,022,477

     Total          $946,787    $2,879,376        $3,812,827    $494,825     $8,133,815




                                          10
 

     Normally, an account receivable is reported in the “open” status for 30 days after
     issuing the debt notification letter to the soldier. If the soldier does not respond to
     the debt notification letter after 30 days, MPAD should start the process of
     collecting the debt from the soldier’s pay. If the soldier responds and considers
     the debt to be invalid, the receivable is placed in “pending information” status.
     The receivable will remain in the pending information status, where it awaits
     documentation from the soldier or further research by MPAD accounting
     personnel. We found that travel debts remained in open and pending information
     status for more than 2 years. Without a management report to show the account
     receivable by case status and the age of PCS travel advances in the backlog,
     DFAS-IN lacked essential information to effectively manage the collection of
     PCS travel advance debts. Delays in starting the debt collection process makes it
     more likely that the soldier will leave military service before the debt is collected.
     Waiting to collect PCS travel advance debts from out-of-service soldiers increases
     the cost to collect the debt and reduces the amount of debt recovered.


Plan of Actions and Milestones
     DFAS-IN did not develop a formal process to evaluate the effectiveness of the
     Plan of Actions and Milestones to improve accountability and control over travel
     advances. The plan, developed by DFAS-IN and the Army in June 2005,
     included the following actions:

            •	 provide additional training to travel pay office personnel on processing
               advances and settlement claims,

            •	 modify the Integrated Automated Travel System to reject zero-filled
               document reference numbers,

            •	 modify the Integrated Automated Travel System to generate a “pop-up
               screen” to assist technicians when entering the EOR, and

            •	 establish Army Management Structure Codes to better account for
               PCS travel advances issued to officers and enlisted personnel.

     Most corrective actions were implemented during FY 2006 or were ongoing as of
     July 31, 2006. However, DFAS-IN had not established a formal process to
     evaluate the effectiveness of the Plan of Actions and Milestones to improve
     control and accountability over travel advances. While researching and clearing
     travel advance accounts and collecting travel debts, MPAD should analyze the
     data to identify the root causes for uncleared travel advance transactions and
     erroneous data. DFAS-IN should use this information to evaluate the
     effectiveness of the Plan of Actions and Milestones and identify actions to
     improve control over PCS travel advances and the debt collection process.




                                           11
 

Summary 
 

    DFAS-IN did not have effective controls in place to account for, research, and
    collect PCS travel advances paid from the MPA appropriation. This lack of
    effective processes and controls resulted in write-offs of outstanding travel
    advances and in uncollected travel debts. DFAS-IN needs to develop a
    cost-effective strategy for completing research and collection of the FYs 2002 and
    2003 travel advance accounts, and identify and devote the resources to research
    and reconcile the FYs 2004 and later travel advance accounts. DFAS-IN also
    needs to maintain visibility over the travel debt collection process and implement
    procedures to evaluate the effectiveness of the Plan of Actions and Milestones
    and identify needed improvements. DFAS-IN should take these actions in
    coordination with the Army in order to avoid future year write-offs of outstanding
    PCS travel advances.


Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis Operations:

           1. Develop, in coordination with the Office of the Assistant Secretary
    of the Army (Financial Management and Comptroller), a cost-effective
    strategy for researching and collecting FYs 2002 and 2003 unsettled
    permanent change of station travel advances. The strategy should consider
    factors such as dollar value of the travel advance, availability of
    documentation, duty status of the traveler, and the costs incurred by Travel
    Pay Operations and other Army and Defense Finance and Accounting
    Service organizations to assist in researching travel records and collecting
    the verified travel debts.
    Management Comments. The Director, DFAS-IN Operations concurred with
    comment and stated that DFAS has worked with the Army for the last two years
    on a cost-effective strategy for researching and collecting PCS travel advances.
    However, DFAS is unable to resolve the remaining outstanding FYs 2002 and
    2003 PCS travel transactions due to missing information within the line of
    accounting. The Director stated that the majority of FY 2002 outstanding
    transactions are missing document reference numbers and, as a result, cannot be
    tracked and researched through the automated systems. In addition, DFAS does
    not have a quick and efficient way to retrieve the necessary hard copy documents
    because travel orders and travel payments originate and are stored at various
    locations. The Director also stated the Army Managerial Accounting Division
    has identified and resolved the obvious problem transactions, and the remaining
    outstanding advances require more time-consuming research and review by
    subject matter experts within Travel Pay Operations and MPAD. Based on the
    estimated cost to complete and collect any verified travel debt, the Director does
    not believe that further research of FYs 2002 and 2003 PCS travel transactions
    will be cost-beneficial to the Army.
                                        12

Audit Response. Management comments are partially responsive. The Director,
DFAS-IN Operations stated that further research of FYs 2002 and 2003 unsettled
PCS advances would not be cost-effective. However, the Director did not
indicate that DFAS prepared a documented cost-benefit analysis to support that it
would not be cost-effective to research and collect outstanding travel advances.
As of July 2006, the Army Managerial Accounting Division reported uncleared
travel advance transactions with an absolute value of about $79.7 million and a
net value of about $8.3 million. The $79.7 million included about $5.4 million
that the Army Managerial Accounting Division, based on preliminary review, had
classified and reported to the Army as unsettled advances and advances requiring
additional documentation or awaiting debt verification. A documented cost-
benefit analysis is needed to develop a cost-effective strategy for researching and
collecting FYs 2002 and 2003 unsettled PCS travel advances. Once such an
analysis is prepared, DFAS-IN needs to coordinate with the Office of the
Assistant Secretary of the Army (Financial Management and Comptroller) to
agree on the strategy and minimize the write-offs of travel advances paid from the
FYs 2002 and 2003 MPA appropriations. We request that the Director, DFAS-IN
Operations provide additional comments in response to the final report.

       2. Assign responsibility for collecting verified permanent change of
station travel debts that occurred during the open allotment time period.
Collect the $3 million owed by Army soldiers and other verified travel debts.

Management Comments. The Director, DFAS-IN Operations concurred with
comment and stated that any valid debts identified by Travel Pay Operations
would be turned over to the MPAD for debt collection. The Director stated that
Travel Pay Operations has not yet validated any debt for the reasons identified in
management’s response to Recommendation A.1. DFAS-IN will continue to
research and determine the validity of debts. The Director stated that the amount
of monetary savings cannot be determined until further research is completed.
The estimated completion date is December 31, 2007.

Audit Response. Management comments are responsive. The MPAD should
take action to collect the $3 million of travel debts identified by Travel Pay
Operations. In addition, the MPAD should take appropriate collection actions on
the $5.4 million of probable overpayments of PCS travel advances after the Army
Managerial Accounting Division and Travel Pay Operations complete research
and determine the validity of any debts.

       3. Establish procedures to track and monitor the cost-effectiveness of
researching and collecting FYs 2002 and 2003 unsettled travel advances.

Management Comments. The Director, DFAS-IN Operations concurred with
comment and stated that procedures will be put in place by December 31, 2007, to
monitor and track the cost-effectiveness of pursuing collections of valid debts.

Audit Response. Management comments are responsive. The Director,
DFAS-IN Operations should establish procedures to track and monitor the
cost-effectiveness of researching and collecting advances before completing the



                                    13
 

collection of verified travel debts. The Director provided the same estimated
completion date for both actions.

       4. Provide the Military Pay Accounting Division with the resources
required to promptly research, reconcile, and clear all unsettled advances in
the FYs 2004 through 2006 permanent change of station travel advance
accounts.

Management Comments. The Director, DFAS-IN Operations concurred and
stated that in April 2006 the MPAD received authorizations for an additional 29
spaces to accomplish the accounting workload for the MPA appropriation, to
include debt management and PCS travel advances.

       5. Develop a management report to provide increased visibility and
oversight over the travel debt collection process.

Management Comments. The Director, DFAS-IN Operations concurred and
stated that the MPAD will develop a monthly management report that ages PCS
travel advances by fiscal year. In addition, the division will develop a Plan of
Actions and Milestones to research and clear PCS travel advances issued after the
MPA appropriation converted to a specific allotment in FY 2004.

        6. Establish procedures to analyze the results of researching and
clearing the travel advance accounts and collecting travel debts. Identify and
track the root causes for uncleared travel advance transactions and
erroneous data in the management debt tool. Use this information to assess
the effectiveness of the Plan of Actions and Milestones and to identify needed
improvements.

Management Comments. The Director, DFAS-IN Operations concurred and
stated that by May 30, 2007, the MPAD will establish standard procedures to
analyze and track the root causes for uncleared PCS travel advances.




                                    14
 

                     B. Suspense Accounts
                     MPAD did not implement effective controls over the MPA appropriation
                     suspense accounts. Specifically, MPAD did not:

                              •	 reconcile suspense account balances recorded in the
                                 STANFINS to the account balances reported to the Department
                                 of Treasury,

                              •	 research and clear the detailed transactions posted to the
                                 suspense accounts in a timely manner, and

                              •	 submit an accurate and complete monthly Suspense Account
                                 Report.

                     MPAD did not properly research, reconcile, clear, and report suspense
                     accounts because it did not develop adequate standard operating
                     procedures, provide sufficient training to personnel, and ensure timely and
                     effective implementation of its Plan of Actions and Milestones. As a
                     result, the suspense account balances reflected in the MPA appropriation
                     accounting reports and monthly Suspense Account Report were not
                     reliable and accurate. In addition, unresolved transactions residing in
                     suspense accounts can conceal problem disbursements and erroneous
                     payments. 11


Criteria
            Using Suspense Accounts. Suspense accounts are used to temporarily hold
            disbursements and collections until they are cleared to the proper appropriation
            account. The Suspense Account Report is submitted monthly to DFAS-IN
            Departmental Accounting. As of June 30, 2006, MPAD reported 16 non-tax
            suspense accounts with balances totaling about $212.2 million on its monthly
            Suspense Account Report.

            Researching and Clearing Suspense Accounts. DoD FMR, volume 12,
            chapter 1, requires the DoD Components to minimize the balance in clearing
            accounts by expeditiously transferring disbursements and collections to their
            proper accounts. DoD FMR, volume 3, chapter 11, “Unmatched Disbursements,
            Negative Unliquidated Obligations, In-transit Disbursements and Suspense
            Accounts,” January 2001, requires that accounting offices and disbursing offices
            clear disbursement transactions recorded in “Budget Clearing Account - F3875”
11
     For this report, we define problem disbursements as transactions that contain errors, missing information
     or other problems that prevent the accounting office from properly accounting for them.




                                                       15
 

        within 60 days of initially recording a charge in the clearing account. 12 If the
        accounting office lacks documentation to clear the suspended disbursement
        transaction within 60 days, it should reject the transaction back to the responsible
        disbursing office. The DoD FMR also requires that DFAS establish procedures
        for aging, monitoring, and reporting transactions recorded in suspense accounts.
        In addition, DFAS-IN Regulation 37-1, chapter 18, “Deposit Fund, Suspense, and
        General Fund Clearing Accounts,” May 2004, requires accounting procedures to
        ensure that all amounts in the clearing and deposit fund accounts are properly
        documented, supported, and cleared. The accounting office is required to clear
        transactions within 60 days, unless the transaction is recorded in an account
        which is identified as exempt on the monthly Suspense Account Report.

        Reporting and Reconciling Suspense Accounts. DFAS-IN Regulation 37-1,
        chapter 28, “Accounting Reports,” March 2005, requires accounting offices to
        report the status of transactions in the clearing and deposit fund accounts in the
        monthly Suspense Account Report. The report should reflect the account
        balances reported to the Department of Treasury and show the number of
        transactions by age, net value, and absolute value for each account. The report
        should include an explanation for all suspense accounts and the planned course of
        action for clearing the accounts. In addition, DFAS-IN Regulation 37-1,
        chapter 27, “Analysis, Review, and Reconciliation,” July 2004, requires that
        accounting offices ensure that subsidiary records agree with the suspense account
        balances reported to DFAS-IN Departmental Accounting and the Department of
        Treasury. As the accounting office responsible for the accounting and financial
        reporting of the MPA appropriation, MPAD should use the following four reports
        to reconcile and validate the data included in the Suspense Account Report:

               Unapplied Disbursing Officer’s Deposit Report. This report is
        produced by STANFINS, the installation-level accounting system, and shows the
        accounting office’s month-end suspense account balances. The report
        summarizes the expenditure data (disbursements and collections) submitted to
        DFAS-IN Departmental Accounting for serviced organizations.

                 General Ledger Trial Balance. This report shows the month-end
        balances of the accounting office’s STANFINS General Ledger for the serviced
        fiscal stations. As required by the DoD FMR, volume 4, chapter 12, clearing
        accounts and deposit fund accounts are reported as liabilities on the General
        Ledger Trial Balance.

                Non-Stock Fund Orders and Payables Listing. This report identifies,
        by document reference number, the disbursement, collection, and adjustment
        transactions affecting each suspense account. Suspense account balances reported
        in the Non-Stock Fund Orders and Payables Listing should reconcile to the
        balances reported in the accounting office’s Unapplied Disbursing Officer’s
        Deposit Report and the General Ledger Trial Balance.

12
 MPAD used clearing account 21F3875.5104, “Miscellaneous Transactions,” and specific accounting
 processing codes to record 10 categories of miscellaneous disbursement and collection transactions,
 including in-transit disbursements. In-transit disbursements are disbursements that disbursing offices
 have reported to the Department of Treasury but have not yet been received by the responsible
 accounting offices or matched to the corresponding obligations.

                                                    16
 

           Disbursing Officer’s Fund Activity Report. This report is produced by
    the DFAS-IN Headquarters Accounting and Reporting System and shows the
    month-end balances for all clearing and deposit fund accounts for each reporting
    accounting office. Accounting offices should use the Disbursing Officer’s Fund
    Activity Report, along with other reports identified in DFAS-IN Regulation 37-1,
    to reconcile suspense account balances reported in its Unapplied Disbursing
    Officer’s Deposit Report to the balances reported to the Department of Treasury
    by DFAS-IN Departmental Accounting.


Reconciling Reported Account Balances
    MPAD did not reconcile variances between the summary suspense account
    balances reflected in the Unapplied Disbursing Officer’s Deposit Report and other
    accounting reports produced by STANFINS and the information reported on the
    monthly Suspense Account Reports. In addition, MPAD did not reconcile the
    suspense account balances reported on its Unapplied Disbursing Officer’s Deposit
    Report to the balances reported to the Department of Treasury by DFAS-IN
    Departmental Accounting. Variances between reported summary suspense
    account balances create an uncertainty regarding the accuracy and reliability of
    data contained in the MPA appropriation financial reports.

    Reconciling Standard Finance System Reports. MPAD did not effectively
    reconcile suspense account details reported in the different reports within the
    accounting system.

            General Ledger Trial Balance. MPAD did not completely reconcile the
    suspense account balances on the Unapplied Disbursing Officer’s Deposit Report
    with the account balances recorded in the General Ledger Trial Balance. MPAD
    reported the account balances shown in the Unapplied Disbursing Officer’s
    Deposit Report on the monthly Suspense Account Report submitted to DFAS-IN
    Departmental Accounting, and it identified the accounts which did not reconcile
    with the General Ledger Trial Balance. The June 2006 Suspense Account Report
    identified 16 non-tax suspense accounts with balances totaling about
    $212.2 million. The report certification stated that three suspense accounts in the
    General Ledger Trial Balance did not agree with the balances reported to
    DFAS-IN Departmental Accounting on the Unapplied Disbursing Officer’s
    Deposit Report, and that accounting personnel were in the process of researching
    and reconciling the accounts. However, the three suspense accounts had
    remained in an out-of-balance condition for at least 6 months. This occurred
    because MPAD officials did not provide effective oversight to ensure that the
    responsible accountants reconciled the reported out-of-balance conditions in a
    timely manner.

           Non-Stock Fund Orders and Payables Listing. MPAD also did not
    reconcile the suspense account balances reported in the Unapplied Disbursing
    Officer’s Deposit Report and General Ledger Trial Balance with the balances in
    the Non-Stock Fund Orders and Payables Listing. For example, the June 2006
    Unapplied Disbursing Officer’s Deposit Report showed a net balance of about


                                        17
 

            $528,000 in the Unavailable Check Cancellations clearing account. 13 However,
            the General Ledger Trial Balance reported a net balance of about $4.2 million and
            the Non-Stock Fund Orders and Payables Report showed a net balance of about
            $9 million for the same clearing account. MPAD had not established procedures
            requiring accountants to reconcile the suspense account balances contained in the
            three accounting reports. In addition, MPAD had not effectively trained
            personnel on the procedures to reconcile differences in reported account balances
            by researching and clearing the detailed accounting transactions. Personnel that
            we interviewed stated that they had not received adequate training and were not
            aware of the different reports in STANFINS needed for reconciliation purposes,
            such as the Non-Stock Fund Orders and Payables Listing. A complete
            reconciliation of suspense account balances reflected in the different accounting
            reports is a key internal control to ensure the accuracy and completeness of the
            reported balances.

                    Clearing Closed Suspense Accounts. MPAD did not complete the
            reconciliation by clearing closed accounts reported in the General Ledger Trial
            Balance and the Non-Stock Fund Orders and Payables Report. The June 2006
            General Ledger Trial Balance included 9 closed suspense accounts with balances
            totaling about $1.4 billion, and the Non-Stock Fund Orders and Payables Report
            included 33 closed accounts with balances totaling about $2.8 billion. DFAS-IN
            Departmental Accounting neither reported these closed accounts to the
            Department of Treasury nor included them in the Army’s departmental-level
            financial statements. However, MPAD continued to report the closed suspense
            accounts in its General Ledger Trial Balance and Non-Stock Fund Orders and
            Payables Report because it did not have procedures requiring accountants to
            research and clear the detailed accounting transactions from the STANFINS
            records when the accounts were closed. As a result, the STANFINS accounting
            reports used by DFAS accountants and Army officials to monitor and assess the
            status of MPA appropriation contained erroneous and misleading data.

            Reconciling to DFAS-IN Departmental Accounting Records. MPAD did not
            follow the process outlined in DFAS-IN Regulation 37-1 for reconciling suspense
            account balances reported in its Unapplied Disbursing Officer’s Deposit Report to
            the balances reported to the Department of Treasury by DFAS-IN Departmental
            Accounting. As a result, MPAD reported the account balances shown in its
            Unapplied Disbursing Officer’s Deposit Report on the monthly Suspense Account
            Report, rather than balances reported to the Department of Treasury by DFAS-IN
            Departmental Accounting. Four of the 16 non-tax accounts reported on the June
            2006 Suspense Account Report had unreconciled differences between balances
            reported in the Unapplied Disbursing Officer’s Deposit Report and balances
            reported to the Department of Treasury. For example, MPAD reported a balance
13
     The unavailable check cancellations clearing account is used to hold credit and charge-back transactions
     received from the Department of Treasury for recertified and limited payablity check cancellations. The
     Department of Treasury will issue a credit for checks reported as lost or stolen. Disbursing offices use
     the credit to issue a recertified or replacement check. Treasury also issues a credit for checks not
     negotiated within 1 year of issuance. A charge-back is a reversal of a previously issued credit for a check
     cancellation.




                                                        18
 

            of $103.8 million in the Army Member Savings Deposit account 14 while the
            Department of Treasury reported an account balance of $110.7 million. MPAD
            did not identify the $6.9 million discrepancy because its standard operating
            procedures did not include the process outlined in DFAS-IN Regulation 37-1 for
            reconciling differences between its Unapplied Disbursing Officer’s Deposit
            Reports and balances reported to the Department of Treasury by DFAS-IN
            Departmental Accounting. Reconciling suspense account balances reported by
            the accounting offices to balances reported by DFAS-IN Departmental
            Accounting is an essential internal control to ensure the integrity of accounting
            data.


Researching and Clearing Suspense Accounts
            MPAD did not research and clear the detailed transactions temporarily recorded
            in three of four MPA appropriation suspense accounts we reviewed in a timely
            manner. DFAS-IN Military Pay Operations maintained the detailed records of
            soldiers owed for re-credited checks (non-negotiated checks returned to the
            disbursing office), and it properly researched and provided MPAD the necessary
            information required to clear the Canceled and Re-credited Checks suspense
            account. However, MPAD did not research and clear three other MPA
            appropriation suspense accounts in a timely manner. Specifically, MPAD
            personnel did not research and promptly clear the detailed transactions recorded
            in the Miscellaneous Transactions and the Unavailable Check Cancellations
            clearing accounts, which were classified as non-exempt accounts on the Suspense
            Account Report. In addition, MPAD did not have a process in place to research
            and clear soldiers’ deposits and loan payments recorded in the Thrift Savings Plan
            suspense account.

            Miscellaneous Transactions. MPAD did not research and clear in-transit
            disbursements recorded in the Miscellaneous Transactions budget clearing
            account in a timely manner. DoD FMR, volume 3, chapter 11, requires that the
            accounting office clear in-transit transactions within 60 days or reject the
            transactions to the responsible disbursing office, if there is a lack of required
            documentation. The March 2006 Miscellaneous Transactions account included
            481 in-transit transactions, with a net value of $2.4 million and a total absolute
            value of $3.9 million. Of these 481 transactions, 385 transactions with a net value
            of $2.5 million and a total absolute value of $3.7 million were more than 60 days
            old. The responsible accountant did not clear the older transactions because he
            lacked documentation to identify the corresponding obligations, and MPAD had
            not established procedures to reject the transactions to the responsible disbursing
            offices.

14
     Deposit fund account “21X6010 - Army Member Savings Deposit” is used to record savings deposits,
     cash contributions, and payroll deductions made by service members stationed in Southwest Asia and the
     Persian Gulf Region.




                                                      19
 

            Recertified Checks. MPAD did not research and clear recertified check
            transactions in the Unavailable Check Cancellations clearing account. 15
            DFAS-IN Regulation 37-1, chapter 18, requires that accounting offices research
            and transfer the credits and charge-backs to the appropriation originally charged
            for the payment within 30 days. The March 2006 Unavailable Check
            Cancellations account included 1,449 recertified check transactions with a net
            value about $771,000 and a total absolute value of about $33.8 million. Of the
            1,449 transactions, 1,358 transactions with a net value of about $570,000 and a
            total absolute value of about $28.2 million were more than a year old. This
            occurred because MPAD did not establish procedures to research and transfer
            within 30 days all credit and charge-back transactions to the appropriation
            originally charged for the payment.

            Thrift Savings Plan. MPAD had not completed actions it planned to take in
            response to a KPMG LLP audit that identified and reported an internal control
            weakness over the process of reconciling the amounts deposited in and withdrawn
            from the Thrift Savings Plan suspense account. 16 MPAD planned to implement a
            process to reconcile Thrift Savings Plan contributions and loan payments
            submitted to the National Finance Center 17 to amounts recorded in the Thrift
            Savings Plan suspense account. However, as of November 2006, MPAD had not
            completely identified the process to reconcile Thrift Savings Plan contributions
            and loan payments. These planned actions, if effectively implemented, should
            provide a process for researching and clearing the detailed transactions in the
            Thrift Savings Plan suspense account.


Reporting Suspense Accounts
            MPAD did not prepare and submit an accurate and complete Suspense Account
            Report to DFAS-IN Departmental Accounting. DFAS-IN Regulation 37-1,
            chapter 28, requires accounting offices to report to DFAS-IN Departmental
            Accounting, by limit, the balance of each clearing and fund deposit account that
            they reported to the Department of Treasury. As discussed on page 18, 4 of the
            16 non-tax suspense accounts in the June 2006 Suspense Account Report had
            balances different from those reported to the Department of Treasury. In
            addition, the Suspense Account Report did not accurately reflect the status of
            each of the MPA appropriation clearing and deposit fund accounts. Specifically,
            MPAD reported:

15
     MPAD recorded recertified check cancellation transactions in account limit 21F3880.1 and limited
     payability check cancellation transactions in account limit 21F3880.2. A recertified check is issued to
     military personnel when the original check is lost or destroyed within 1 year of the date of the original
     check.
16
     KPMG LLP Draft Report, “Employee Benefits Security Administration: Review of the Thrifts Savings
     Plan Operations Related to the United States Army,” July 21, 2006. KPMG LLP was under contract with
     the U.S. Department Of Labor.
17
     The National Finance Center is the Thrift Savings Plan record keeper for the Federal Retirement Thrift
     Investment Board.



                                                         20
 

            •	 the number of transactions recorded during the month, rather than the
               total number of uncleared transactions in the account;

            •	 all transactions in the 0-30 day age category, rather than the age of
               transactions based on the disbursement date; and

            •	 the net balance for each account, but not the absolute dollar amount.

     MPAD standard operating procedures contained erroneous instructions. The
     procedures required accountants to report only the number of transactions for the
     current month and to include all transactions within the 0-30 day age category,
     rather than actual age of transactions. For example, 385 of the 481 in-transit
     transactions recorded in the “Miscellaneous Transactions” account were more
     than 60 days old. In addition, MPAD standard operating procedures did not
     describe the process for calculating the absolute dollar amount. As a result,
     DFAS management lacked the essential and accurate data needed to monitor and
     assess the status of the suspense accounts.


Implementing the Plan of Actions and Milestones
     MPAD did not implement the Plan of Actions and Milestones it developed to
     improve control over reconciling and reporting suspense accounts. In
     September 2004, MPAD identified problems in reconciling and reporting
     suspense accounts, and it prepared a plan of corrective actions with target
     milestone dates aimed at improving the reconciliation and reporting of suspense
     accounts. Identified problems included:

            •	 the Disbursing Officer’s Deposit Account Report did not agree with
               account balances reported in the General Ledger Trial Balance;

            •	 the Non-Stock Fund Orders and Payables Listing did not agree with
               the Disbursing Officer’s Deposit Account Report and the General
               Ledger Trial Balance, and it included inactive Department of Treasury
               appropriations; and

            •	 the Suspense Account Report did not accurately report the age of
               transactions in the suspense accounts.

     In October 2005, MPAD personnel concluded that the same problems still existed
     and established revised target milestone dates. However, the Plan of Actions and
     Milestones was not comprehensive because it did not prescribe specific and
     measurable steps, including assigning dedicated staffing, to accomplish the plan
     objectives. In addition, MPAD did not report the revised Plan of Actions and
     Milestones or the status of corrective actions to the Director of Accounting
     Operations. An MPAD official attributed the delay in implementing corrective
     action to insufficient staff. MPAD needs to develop a comprehensive Plan of
     Actions and Milestones to correct previously identified problems and the
     deficiencies discussed in this report. It should also give the DFAS-IN Director of


                                         21
 

    Accounting Operations quarterly reports on the status of corrective actions taken.
    In addition, DFAS-IN should dedicate adequate staffing to ensure that MPAD
    effectively implements the Plan of Actions and Milestones.


Summary
    MPAD did not have effective controls in place to reconcile, research, clear, and
    report the MPA appropriation suspense accounts. This lack of effective controls
    resulted in unreliable and inaccurate reporting of suspense account balances. In
    addition, unresolved transactions residing in suspense accounts can conceal
    problem disbursements and improper payments. MPAD had developed a Plan of
    Actions and Milestones to improve control over suspense accounts but had not
    effectively implemented it. MPAD needs to develop detailed standard operating
    procedures, train personnel, improve management oversight, and ensure that the
    Plan of Actions and Milestones is effectively implemented.


Recommendations and Management Comments
    B. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis Operations:

          1. Reconcile differences between reported summary suspense account
    balances. Specifically, implement procedures for:

                 a. Providing effective oversight to ensure that accounting
    personnel reconcile out-of-balance suspense accounts in a timely manner.

                  b. Reconciling monthly the suspense account balances
    reported in the Unapplied Disbursing Officer’s Deposit Report, General
    Ledger Trial Balance, and the Non-Stock Fund Orders and Payables Listing.

                 c. Researching and clearing suspense accounts recorded in the
    Standard Finance System when the accounts are formally closed.

                 d. Reconciling suspense account balances reported in the
    Unapplied Disbursing Officer’s Deposit Report to the balances reported to
    Department of Treasury by Departmental Accounting, Defense Finance and
    Accounting Service Indianapolis.

            Management Comments. The Director, DFAS-IN Operations concurred
    and stated that standard operating procedures are being updated and an aggressive
    plan of action is being developed to reconcile all suspense accounts. The plan
    will involve more personnel in the complete reconciliation process. The target
    date for completion is May 30, 2007. The Director also stated that internal
    controls are now in place to complete weekly reconciliations of all suspense
    accounts.


                                        22

       2. Train personnel on the proper procedures for reconciling
differences in reported account balances by researching and clearing the
detailed accounting transactions.

        Management Comments. The Director, DFAS-IN Operations concurred
and stated that MPAD personnel were being trained and cross-trained on how to
research and clear lines from the Non-Stock Fund Orders and Payables Listing
and reconcile to the summary balance in the Unapplied Disbursing Officer’s
Deposit Report.

       3. Implement procedures to clear within 60 days all in-transit
disbursements recorded in the Miscellaneous Transactions budget clearing
account or to reject the transactions back to the responsible disbursing office
due to lack of required documentation.

        Management Comments. The Director, DFAS-IN Operations concurred
and stated that MPAD implemented procedures in November 2006 to either clear
in-transit disbursements recorded in the Miscellaneous Transactions budget
clearing account or reject the transactions to the responsible disbursing office.

      4. Establish procedures to research the Unavailable Check
Cancellations clearing account and to transfer within 30 days all credit and
charge-back transactions to the appropriation originally charged for the
payment.

        Management Comments. The Director, DFAS-IN Operations concurred
and stated that MPAD implemented procedures in November 2006 to research the
Unavailable Check Cancellation clearing account and to transfer all credit and
charge-back transactions to the appropriation originally charged within 30 days.

      5. Update the standard operating procedures for preparing the
monthly Suspense Account Report to:

            a. Report the total number of uncleared transactions, rather
than the number of transactions recorded during the reporting month;

              b. Report transactions by age category based on the
disbursement date, rather than consolidating all transactions in the 0-30 day
category; and

              c. Describe the process for calculating and reporting the
absolute dollar amount for each account.

        Management Comments. The Director, DFAS-IN Operations concurred
and stated that MPAD revised standard operating procedures for preparing the
monthly Suspense Account Report in November 2006.

      6. Develop a comprehensive Plan of Actions and Milestones for
improving control over Military Personnel, Army appropriation suspense
accounts. The plan should include specific and measurable steps to correct


                                   23
 

previously identified problems and the deficiencies identified in this report,
and the Director, Military Pay Accounting Division should report the status
of corrective actions taken to the Director of Accounting Operations on a
quarterly basis.

        Management Comments. The Director, DFAS-IN Operations concurred
and stated that MPAD revised the Plan of Actions and Milestones in
November 2006 to include steps to address report recommendations.

              7. Dedicate adequate staffing in the Military Pay Accounting
Division to ensure that it implements the Plan of Actions and Milestones.

        Management Comments. The Director, DFAS-IN Operations concurred
and stated that adequate staffing was provided in November 2006 to implement
the revised Plan of Actions and Milestones.




                                   24
 

Appendix A. Scope and Methodology 
 

   We reviewed DFAS-IN processes and controls for researching, clearing, and
   monitoring PCS travel advances paid from the MPA appropriation. We
   interviewed DFAS-IN personnel to determine procedures used to research and
   collect FYs 2000 through 2003 PCS travel advances. We reviewed information to
   support the write-offs of the FYs 2000 and 2001 PCS travel advance accounts.
   We analyzed data supporting progress made in researching and clearing the
   FYs 2002 and 2003 PCS travel advances and reviewed the DFAS-IN strategy for
   completing the project. We reviewed reports on the status of researching PCS
   advances issued after FY 2003 and evaluated the resources devoted to the
   research. We analyzed data recorded in the MPAD travel debt management tool
   to determine the status of the debt collection process. We also reviewed and
   evaluated the Plan of Actions and Milestones developed by DFAS-IN and the
   Army to improve accountability and control over travel advances.

   We obtained and reviewed the spreadsheet from the Army Managerial
   Accounting Division and Travel Pay Operations for verified travel debts that had
   not been collected as of July 5, 2006. We did not verify the travel debts in the
   spreadsheet. Our review of travel pay office processes was limited to DFAS-IN
   Travel Pay Operations.

   We examined and evaluated the procedures MPAD used to research, reconcile,
   and report the MPA appropriation suspense accounts. We limited the scope of the
   review to the 16 non-tax suspense accounts reported in the June 2006 Suspense
   Account Report. The suspense accounts related to taxes were not reviewed
   because we proposed an audit of the Defense Joint Military Pay System tax
   withholdings and related Army military pay suspense accounts. We compared
   summary suspense account balances reflected in the accounting reports produced
   by STANFINS and the DFAS-IN Headquarters Accounting and Reporting
   System and evaluated procedures for reconciling variances in the reported
   balances. We reviewed procedures and analyzed the timeliness of researching
   and clearing transactions recorded in 4 of the 16 non-tax MPA appropriation
   suspense accounts. We analyzed the accuracy and completeness of data included
   in the monthly Suspense Account Report. We also reviewed and evaluated the
   Plan of Actions and Milestones developed by MPAD to improve control over
   reconciling and reporting suspense accounts.

   We performed this audit from August 2005 through November 2006 in
   accordance with generally accepted government auditing standards.

   Use of Computer-Processed Data. We used travel and accounting data and
   reports generated by DFAS payroll, travel, and accounting systems, and the
   DFAS and Army travel pay offices, to perform this audit. Systems used to
   process and account for the MPA appropriation financial data include the Defense
   Joint Military Pay System, STANFINS, ODS, and the Headquarters Accounting
   and Reporting System. The DoD Inspector General (IG) has reported, and DoD
   has acknowledged, deficiencies in the adequacy of general and application


                                      25
 

controls in at least two of these systems. DoD IG Report No. D-2005-059,
“Report on Standard Finance System Controls Placed in Operation and Tests of
Operating Effectiveness for the Period October 1, 2004, through March 31,
2005,” April 30, 2005, identified numerous system and application control
deficiencies. DoD IG Report No. D-2001-052, “Controls Over the Defense Joint
Military Pay System,” February 15, 2001, reported that there were also significant
system and application control deficiencies with the pay system. Because of the
acknowledged unreliability of DoD financial management systems, we did not
perform additional tests regarding data reliability.

Our review of DFAS-IN controls over PCS travel advances and suspense
accounts identified potential problems with the validity of data in accounting
records. As discussed in Finding A, accounting records contained erroneous and
incomplete data on PCS travel advances. As discussed in Finding B, variances
existed in the suspense account data reflected in different accounting reports.
However, we did not find errors that would preclude the use of the computer-
processed data to meet the audit objective or that would change the conclusions in
the report.

Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the DoD Financial Management high-risk area.




                                    26
 

Appendix B. Prior Coverage 
 

    During the last 5 years, GAO, DoD IG, and the U.S. Army Audit Agency
    (USAAA) have issued nine reports discussing military personnel costs.
    Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports. USAAA reports are restricted to military
    domains and GAO. They can be accessed at
    https://www.aaa.army.mil/reports.htm.


GAO
    GAO Report No. 05-021, “DoD Problem Disbursements: Long-standing
    Accounting Weaknesses Result in Inaccurate Records and Substantial Write-
    offs,” June 2, 2005

    GAO Report No. 04-89, “Military Pay: Army National Guard Personnel
    Mobilized to Active Duty Experienced Significant Pay Problems,” November 13,
    2003

    GAO Report No. 03-100, “Federal Pensions: DOL Oversight and Thrift Savings
    Plan Accountability,” April 23, 2003


DoD IG
    DoD IG Report No. D-2007-2003, “Internal Controls Over the Army General
    Fund, Note 3, Fund Balance With Treasury,” October 10, 2006

    DoD IG Report No. D-2006-112, “Selected Controls Over the Military Personnel,
    Army Appropriation,” September 22, 2006

    DoD IG Report No. D-2005-059, “Report on Standard Finance System Controls
    Placed in Operation and Tests of Operating Effectiveness for the Period
    October 1, 2004 through March 31, 2005,” April 30, 2005

    DoD IG Report No. D-2004-106, “Selected Controls Over the Army Fund
    Balance With Treasury at Defense Finance and Accounting Service Indianapolis,”
    August 5, 2004




                                       27
 

USAAA
   USAAA Report No. A-2005-0127-ALW, “Validation of the Army’s Fund
   Balance with Treasury,” March 10, 2005

   USAAA Report No. A-2002-0452-FFG, “Military Pay and Benefits: The Army’s
   Contribution to the Military Retirement Trust Fund,” August 14, 2002




                                  28
 

Appendix C. 	Summary of Potential Monetary
             Benefits Associated with
             Recommendation A.2.
                                                                                     Appropriation
  Type of Benefit           Amount of Potential Monetary Benefits                       Accounts
Army Military             $2.4 million for FY 2002                                 21X2010, Military
Personnel funds put       $0.4 million for FY 2003                                 Personnel, Army
to better use.            $21,000 for FY 2004

                          Approximately $2.8 million.

Army Operation            $7,000 for FY 2002                                       21X2020,
and Maintenance           $59,000 for FY 2003                                      Operation and
funds put to better       $97,000 for FY 2004                                      Maintenance,
use.                                                                               Army
                          Approximately $163,000.

                          Approximate total of $3 million.*
* Excludes about $10,000 of FY 2001 Military Personnel, Army appropriation funds that were longer
  available for obligation or expenditure for any purpose after the appropriation account closed on
  September 30, 2006.




                                                  29
 

Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
  Committee on Government Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Government Oversight and Government Reform




                                          30
 

Defense Finance and Accounting Service
Indianapolis Comments

                      DEFENSE F I N A N C E A N D A C C O U N T I N G SERVICE 

                                           8899 EAST 56TH STREET 

                                         INDIANAPOLIS. INDIANA 46249 


                                                                                         MAR 13 2007
    DFAS-JBI/IN


    MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

    SUBJECT: Selected Controls Over the Military Personnel, Army Appropriation Project No. D2005­
             D000F1-0268.001

         Indianapolis Operations is providing management comments to the following recommendations:

    Recommendation A1: Develop, in coordination with the Office of the Assistant Secretary of the
    Army (Financial Management and Comptroller), a cost-effective strategy for researching and
    collection FYs 2002 and 2003 unsettled permanent change of station travel advances. The strategy
    should consider factors such as dollar value of the travel advance, availability of documentation, duty
    status of the traveler, and the costs incurred by Travel Pay Operations and other Army and Defense
    Finance and Accounting Service organizations to assist in researching travel records and collecting the
    verified travel debts.

    Management Comment: Stakeholder: Becky Crane (317) 510-3344. Concur with comment. DFAS
    has been working with Army for the last 2 years on a cost effective strategy. However, based on the
    research and analysis performed on FY 2 and FY 3 transactions to date, we can not resolve any more
    of these transactions due to missing information within the source accounting line. The majority of the
    remaining outstanding advances belonging to FY 2 lack or is missing the document reference number.
     Die document reference number is the key item for a sufficient audit trail. These transactions can not
    be tracked through the appropriate systems due to incompleteness of data within the systems. We do
    not have a quick and efficient way to retrieve the necessary documents due to the various locations of
    where the documents originated and where it might be stored, and in many cases, the source
    documents do not exist. Army Managerial Accounting Division (AMAD) has identified and resolved
    all of the obvious problem transactions. The remaining advances require much more lime consuming
    research and subject matter experts in Travel and Military Pay Accounting to review and determine
    course of action, AMAD has estimated that it could take 49,000 hours for them to research the
    remaining advances (noted in DoDIG report). Based on the standard hourly rate, the cost chargeable
    to the Army would be approximated $3 million to complete their research. This does not include the
    cost incurred by Travel Pay Operations or other Army and DFAS organizations who would also he
    involved in the research and collection of any verified travel debt The estimated cost of their efforts
    is expected to equal or exceed the AMAD's estimated cost. We do not believe that further research of
    these transactions will be cost beneficial to the Army.

    Estimated Completion Date: September 30, 2007

    Recommendation A2: Assign responsibility for collecting verified permanent change of station travel
    debts that occurred during the open allotment time period. Collect the $3.0 million owed by soldiers
    and other verified travel debts.
                                                 www.dfas.mil
                                           Your Financial Partner @ work




                                                       31 

Management Comment: Stakeholder Becky Crane (317) 510-3344. Concur with comment.
DFAS-IN has previously assigned AMAD to research the travel advances. They identified
approximately S3 million its potential debt candidates and gave them to the DFAS-IN Travel Office to
determine any valid debts. Any valid debts identified would then be turned over to the Military Pay
Accounting Office for due processing. To date, DFAS-IN Travel Office has not been able in validate
any debt per the reasons identified in A1. DFAS-IN will continue to research and determine the
validity of any debts. The amount of monetary savings can not be determined until further research is
completed.

Estimated Completion Date: December 31, 2007

Recommendation A3: Establish procedures to track and monitor the cost-effectiveness of researching
and collecting FYs 2002 and 2003 unsettled travel advances.

Management Comment: Stakeholder: Becky Crane (317) 510-3344. Concur with comment. Based
on the results of A2, procedures will be put in place to monitor and track the cost-effectiveness of
pursuing collections of valid debts,

Estimated Completion Date: December 31,2007

Recommendation A4: Provide the Military Pay Accounting Division with the resources required to
promptly research, reconcile and clear all unsettled advances in the FYs 2004 through 2006 permanent
change of station travel advance accounts.

Management Comment: Stakeholder: Karen Hunsberger (317) 510-1489. Concur. In April 2006,
Military Pay Accounting Division received authorizations for an additional 29 spaces to accomplish
the accounting workload for the whole MPA account, to include Debt Management and the PCS
advances. Complete.

Recommendation AS: Develop a management report to provide increased visibility and oversight
over the travel debt collection process.

Management Comment; Stakeholder: Karen Hunsberger (317) 510-1489. Concur. Military Pay
Accounting will develop a monthly management report that ages PCS advances by fiscal year for
Specific Allotment. In addition, a Plan of Actions and Milestones specific to researching and clearing
PCS advances for Specific Allotment prior years will be developed.

Estimated Completion Date: April 30,2007

Recommendation A6: Establish procedures to analyze the results of researching and clearing the
travel advance accounts and collection travel debts. Identify and track the root causes for uncleared
travel advance transactions and erroneous data in the management debt tool. This information will be
used to assess the effectiveness of the Plan of Actions and Milestones and to identify needed
improvements.




                                                 32 

Management Comment: Stakeholder: Karen Hunsberger (317) 510-1489. Concur. Military Pay
Accounting will establish standard procedures to analyze and track root causes related to uncleared
PCS travel advances.

Estimated Completion Date: May 30,2007

Recommendation B1: Reconcile differences between reported summary suspense account balances,
Specifically, implement procedures: (a-d) Providing effective oversight to ensure the accounting
personnel reconcile out-of-balance suspense accounts in a timely manner. Reconcile monthly
suspense accounts balances reported in the Unapplied Disbursing Officer's Deposit Report, General
Ledger Trial Balance, and Non-Stock Fund Orders and Payable Listing. Researching and clearing
suspense accounts recorded in the Standard Finance System when the accounts are formally closed.
Reconciling suspense account balances reported in the Unapplied Disbursing Officer's Deposit report
to the balances reported to Department of Treasury by Department Accounting, Defense Finance and
Accounting Service Indianapolis,

Management Comment: Stakeholder: Patricia Bey (317) 510-5719. Concur. SOPs are being
updated along with an aggressive plan of action to reconcile all suspense accounts involving more
personnel in the complete process. Internal controls arc now in place for all future reconciliation of
our suspense accounts with complete reviews on a weekly basis rather than monthly.

Estimated Completion Date: May 30,2007

Recommendation B2: Train personnel on the proper procedures for reconciling differences in
reported account balances by researching and clearing the detailed accounting transactions.

Management Comment: Stakeholder: Patricia Bey (317) 510-5719. Concur. Personnel are
currently being trained and cross trained on how to research and clear lines from the non-stock funds
orders and payable to reconciling back to the AVK075 (Unapplied D.O. Deposit Report). Corrective
actions completed.

Recommendation B3: Implement procedures to clear within 60 days all in-transit disbursements
recorded in the Miscellaneous Transactions budget clearing account or to reject the transactions back
to the responsible disbursing office due to lack of required documentation,

Management Comment: Stakeholder: Patricia Bey (317) 510-5719. Concur. Corrective actions
completed November 2006.

Recommendation B4: Establish procedures to research the Unavailable Check Cancellations clearing
account and to transfer within 30 days all credit and charge-back transactions to the appropriation
originally charged for the payment,

Management Comment: Stakeholder: Patricia Bey (317) 510-5719. Concur. Corrective actions
completed November 2006.




                                                     33 

Recommendation B5: Update the standard operating procedures for preparing the monthly Suspense
Account Report to: (a-c) Report the total number of uncleared transactions, rather than the number of
transactions recorded during the reporting month. Report transactions by age category based on the
disbursement date, rather than consolidating all transactions in the 0-30 day category. Describe the
process for calculating and reporting the absolute dollar amount for each account.

Management Comment: Stakeholder: Patricia Bey (317) 510-5719. Concur. Revision of our SOP
and internal controls will correct this action. Corrective actions completed November 2006.

Recommendation B6: Develop a comprehensive Plan of Actions and Milestones for improving
control over Military Personnel Army Appropriation suspense accounts. The plan should include
specific and measurable steps to correct previously identified problems and the deficiencies identified
in this report, and the Director, Military Pay Accounting Division should report the status of corrective
actions taken to the Director of Accounting Operations on a quarterly basis,

Management Comment: Stakeholder: Patricia Bey (317) 510-5719. Concur. A plan of action is
being revised to be more inclusive of all recommendations. Corrective action completed November
2006,

Recommendation B7: Dedicate adequate staffing in the Military Pay Accounting Division to ensure
that it implements the Plan of actions and Milestones.

Management Comment: Stakeholder: Patricia Bey (317)510-5719. Concur. Corrective action
completed November 2006.




                                        for Steve R. Bonta
                                            Director, Indianapolis Operations




                                                     34 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Carmelo G. Ventimiglia
Robert J. Ringwald
Rebecca L. Niemeier
Audrey M. Spear
Karen A. Preston
Matthew F. Bengs
Melissa J. Humerickhouse
Lynn M. Irwin
E. Ellen Kleiman-Redden
